No. 21-_____
IN THE
SUPREME COURT OF THE UNITED STATES

MAURICE STEWART,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_____________________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Maurice Stewart respectfully asks leave to file his petition for writ of certiorari
without prepayment of costs and to proceed in forma pauperis. Petitioner found indigent in the
district court and was represented by appointed counsel for trial. Although his family retained
counsel for sentencing and retained the undersigned counsel for the direct appeal, Petitioner has been
incarcerated since October 2017 and remains indigent. His financial affidavit in support of this
request will be supplemented due to mail delays.
Dated: 21 July 2021

/s/ Jeffrey M. Brandt
Jeffrey M. Brandt, Esq.
ROBINSON & BRANDT, P.S.C.
629 Main Street
Suite B
Covington, KY 41011
(859) 581-7777 voice
(859) 581-5777 facsimile
Counsel of Record for Petitioner

